                                               NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

  Case Number: A08070038                                                                  Page 1 of 1


          We received an allegation that the subject!, a Principal Investigator, committed
          plagiarism in his reports to the Air Force and in a proposal to NSF.2 During our
          joint investigation with the Air Force into the plagiarism allegations, we learned
          the subject proposed the same research to the Air Force, NSF, and DARPA and was
          funded by each agency. Two of the three duplicative proposals were submitted by
          the subject's company while the other was submitted by his university.
         NSF requires PIs to notifY it if the same proposal submitted to NSF has been
         previously submitted to another agency, and the subject failed multiple times to
         notifY NSF of his previous Air Force funding. We referred the matter to the
         Department of Justice, but it declined to prosecute. We recommended NSF debar
         the subject and his company for 3 years; NSF debarred the subject for 2 years.
         Accordingly, this case is closed. Our report of investigation, NSF's adjudication
         decision, and this memo comprise the closeout of this case.




            1 Guifang Li is a faculty member at the University of Central Florida (UCF). Li submitted his
        proposal to NSF through UCF. Li also submitted proposals through [redacted]-a Florida business
        engaged in manufacturing pressed and blown glass. [redacted], is the owner of the small business.
           2 ECCS-0742746, "Development of a Tunable Parametric Mid IR Source Using Silicon Photonic
        Crystal Fiber."



NSF OIG Form 2 (11/02)
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230


                                             May 9, 2011



       OFFICE OF THE
         DIRECTOR




VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




1


         Re: Notice of Debarment for Dr. GUifang Li

Dear

       On January 20, 2011, the National Science Foundation ("NSF") sent your client, Dr.
Guifang Li, a Notice of Proposed Debarment ("Notice") in which NSF proposed to debar him
from directly or indirectly obtaining the benefits of Federal grants for a period oftwo years. The
Notice sets forth in detail the circumstances giving rise to NSF's decision to propose this
debarment. Specifically, NSF proposed debarment because Dr. Li made multiple false
statements to NSF about a Small Grant for Exploratory Research ("SGER") proposal that he
submitted to NSF. In the Notice, NSF provided Dr. Li with an opportunity to respond to the
proposed debarment.

        On February 22,2011, you filed a timely response to the Notice on behalf of Dr. Li. In
this response, you urged NSF not to debar Dr. Li for several reasons including: (1) the material
facts forming the basis of NSF's proposed debarment are inaccurate or in dispute; (2) NSF failed
to give adequate consideration to several mitigating factors in making its decision to propose Dr.
Li's debarment; and (3) debarment is inappropriate because Dr. Li is presently a responsible
principal investigator. As detailed below, I am not persuaded by any of your arguments.


1.      Material Facts

        In his response, Dr. Li argues that there are material facts in dispute, and that NSF failed
to give appropriate consideration to Dr. Li's explanations regarding his actions. I disagree. The
record makes clear that the description of the research proposed by Dr. Li in his SGER proposal
is identical to the description ofthe research proposed by Dr. Li in the proposal that he had
previously submitted to the Air Force Office of Scientific Research ("AFOSR"). Although Dr.
Li suggests that the projects were different, there is no indication of this supposed distinction
                                                                                                -   2 -

noted in the proposals. In addition, Dr. Li concedes that, on the NSF SGER proposal cover
sheet, he checked the "no" box in response to the question, "Is this proposal being submitted to
another Federal agency?" Dr. Li also admits that the proposal that he had submitted to AFOSR
was not listed with the current and pending proposals on his Current and Pending Support form.
The record also demonstrates that, after being shown the AFOSR and NSF proposals with the
duplicative text highlighted, the NSF program officers who reviewed Dr. Li's proposal both
stated that they would not have approved the award had they known that AFOSR had already
funded the research. Thus, the material facts in this case are undisputed.

        Dr. Li also argues that the mistakes he made are insufficient to justify debarment because
NSF must demonstrate that his conduct was "willful" in order to debar him. Once again, I
disagree with Dr. Li's position. Pursuant to the government-wide debarment regulations, an
individual may be debarred for "violation of the terms of a public agreement or transaction so
serious as to affect the integrity of an agency program" or "any ... cause of so serious or
compelling a nature that it affects [the individual's] present responsibility." 2 CFR§ 180.800(b),
(d). Although the regulations include examples of willful conduct that might warrant debarment,
such as a "willful failure to perform in accordance with the terms of one or more public
agreements or transactions," the notion that willful misconduct is a prerequisite for a debarment
action is not supported by the regulatory text.

        That being said, even if proof of willful misconduct was a regulatory requirement, I
firmly believe that the record demonstrates that Dr. Li' s actions were, in fact, willful. He
submitted his SGER proposal to NSF less than a month after being notified by AFOSR that his
STTR proposal would be funded. Thus, it is inconceivable that he would not have understood
the need to inform NSF of the exi:3tence of the AFOSR award.

       I note that Dr. Li suggests that the errors he committed when SUbmitting the SGER
proposal to NSF for consideration were the result of several factors, including NSF time line
pressures, family illness, and international travel. Specifically, his response states:

              While Dr. Li was in Australia in June 2007, the NSF program
              manager told him to get his proposal in ASAP. To meet the NSF
              program manager's deadline, Dr. Li instructed an assistant to
              submit the draft proposal as final on July 1, 2007 because he and
              his wife and child were desperately ill at home. Dr. Li had planned
              to revise the scope of work in the proposal with the NSF project
              leaders upon his return, but due to his illness and the urgent request
              of the NSF program manager, it was not revised before
              submission. Because the AFOSR proposal was not in the UCF
              database, the assistant did not know for the NSF SGER proposal to
              check the "Yes" box or to add the AFOSR proposal to the list of
              Current and Pending Support.
                                                                                             -   3 -

Although I accept Dr. Li's representations regarding his family illness and international travel as
true, these external factors do not relieve Dr. Li of his responsibilities to provide truthful
responses to NSF or any other Federal agency. Moreover, once he and his family returned to
good health, Dr. Li did not take any affirmative steps to ensure that the SGER proposal that had
been submitted to NSF was accurate and complete. Dr. Li had ample opportunity to correct any
mistakes made in the submission process. Notwithstanding the rushed manner in which his
proposal apparently was submitted, he did not deem it necessary to ensure that the proposal
submitted to NSF was accurate and truthful. In sum, as an applicant for Federal funds, Dr. Li
had certain obligations to meet, and he fell woefully short of satisfying these obligations.


2.      Aggravating and Mitigating Factors

        In his response, Dr. Li asserts that there are several mitigating factors to which NSF did
not give appropriate consideration in its decision to propose Dr. Li's debarment. Specifically,
Dr. Li argues that NSF has suffered no halm as a result of his misconduct because the $3,400 in
NSF funds received by the University for the SGER was reimbursed to NSF in April 2010.
Moreover, Dr. Li notes that the silicon PCF research perfonned in conjunction with the award
funded by AFOSR resulted in a patent application in which the government obtains rights and an
invited paper at the European Conference on Optical Conununication in 2010. Dr. Li argues,
therefore, that the government received fairvalue for its investment in his research. In addition,
Dr. Li asserts that his misconduct was an isolated incident Which occurred contemporaneously
with personal and family pressures, and that his conduct will not be repeated. Dr. Li also avers
that he has accepted responsibility for his actions, and has expressed contrition for his
misconduct. He also notes that he has already been reprimanded by the University. In light of
these mitigating factors, Dr. Li opines that debarment is not warranted.

        I recognize the existence of several mitigating factors in this case as outlined in the
Notice of Proposed Debarment. I also have considered the fact that the University has
reprimanded Dr. Li for his misconduct, and that restitution has been made to NSF. This case,
however, presents significant aggravating factors that lead me to the conclusion that debarment is
appropriate. Specifically, notwithstanding Dr. Li's arguments to the contrary, his misconduct
caused significant harm to NSF. Had Dr. Li informed NSF that AFOSR had funded the same
research as proposed in his SGER proposal, it is clear that NSF would not have decided to issue
Dr. Li an award in connection with this proposal. Although rno'st of the award money was never
spent, NSF obligated $70,000.00 as a direct result of Dr. Li's false submission, thereby losing an
opportunity to fund original research proposed by other prospective grantees. Dr. Li' s failure to
recognize the impact that his misconduct had on NSF and other researchers is both disappointing
and troubling.

       Moreover, I disagree with the premise advocated by Dr. Li throughout his response that
he made one negligent mistake. He engaged in a pattern of behavior over a period of time
demonstrating that he was trying to deceive NSF. As referenced previously, he noted on the
cover sheet accompanying his SGER proposal that the proposal had not been submitted to
                                                                                                      - 4 -

another Federal agency. He also failed to list his AFOSR proposal in the Current and Pending
Support section. Moreover, he failed to infonn the University's Authorized Organizational
Representative aboutthe AFOSR award even though a subcontract with the University was
required. He also failed to properly review his SGER proposal before requesting that the
University submit it to NSF. Just as significantly, he failed to verify that the proposal, once
submitted, was accurate even though personal events in his life had apparently precluded him
from doing so prior to submission. Thus, I disagree with Dr. Li' s characterization that the
misconduct in which he engaged was confined to one isolated incident, and consider this to be an
aggravating factor.

       In shoti, after reviewing the aggravating and mitigating factors present in this case, I have
concluded that a two-year debatment of Dr. Li is appropriate.


3.       Present Responsibility

        Lastly, Dr. Li opines that debarment is inappropriate in this instance because he is a
presently responsible researcher. In support of this claim, Dr. Li notes that, in the three years or
so since Dr. Li was first made aware of investigations of his actions, he has not engaged in any
conduct that calls into question his responsibility. Moreover, Dr. Li suggests that his lengthy and
successful track record in Federally sponsored research is evidence demonstrating his present
responsibility.

        I disagree. First, the fact that Dr. Li is an experienced researcher with a history of
success demonstrates that he knew (or, at a minimum, should have known) the rules regarding
proposal submissions, but deliberately ignored them in this situation. Thus, to the extent Dr. Li's
experience is relevant here, it serves as an aggravating factor, not a mitigating factor. Moreover,
although Dr. Li purported to have accepted responsibility for his actions in his initial response to
the Office of Inspector General's draft investigative report, it does not appear as though he
grasps the gravity of his misconduct. His actions had a significant impact on NSF as well as
other researchers, as the $70,000 award that Dr. Li received could have been used to fund other
proposals that had to be declined in 2007.

        In addition, Dr. Li also suggests that.debannent is a disproportionate punishment which
will punish four other graduate students who are pursuing their Ph.D. degrees under Dr. Li' s
supervision, and who rely on his funding. Although we recognize th<:,: possibility that Dr. Li's
actions might have a detrimental impact on his graduate students, NSF has a responsibility to
protect the Federal interest by taking action against Dr. Li that is co~ensurate with his
misconduct. Dr. Li's response to the Notice of Proposed Debarment has not persuaded me that
any action less than a two-year debarment is appropriate.!

'In his response, Dr. Li requests an opportunity for a face-to-face meeting with the debarment official
should NSF be inclined to proceed with the debarment action. In this case, such a meeting is not
necessary because there are no material facts in dispute.
                                                                                                -   5 -

          For all of the foregoing reasons, I have concluded that Dr. Li lacks present responsibility.
  Thus, I am issuing this Notice of Debarment. Accordingly, Dr. Li is debarred until January 20,
  2013. Debarment precludes Dr. Li from receiving Federal financial and non-financial assistance
  and benefits under non-procurement-Federal programs and activities unless an agency head or
  authorized designee makes a determination to grant an exception in accordance with 2 CFR
  180.13 5. Non-procurement transactions include grants, cooperative agreements, scholarships,
 fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
 specified use, and donation agreements.
"
         In addition, Dr. Li is prohibited from receiving Federal contracts or approved
 subcontracts under the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the
 period of this debarment. 2 CFR 180.925. During the debarment period, Dr. Li may not have
 supervisory responsibility, primary management, substantive control over, or critical influence
 on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
 Federal Government.

      If you have any questions regarding the foregoing, please contact Eric S. Gold, Assistant
General Counsel, at (703) 292-8060.



                                                       Sincerely,


                                                   od7.cty~~
                                                       Wanda Ward
                                                       Senior Advisor to the Director
CONFIDENTIAL                                                             CONFIDENTIAL




       National Science
          Foundation
  Office of Inspector General




              Confidential
         Report of Investigation
        Case NUlllber A-08070038
                  3 Septelllber 2010

            '.
 This Confidential Report of Investigation is the property of the NSF OIG and may be
disclosed outside NSF only by OIG under the Freedom of Information and Privacy Acts,
                                5 U.S.C. §§ 552, 552a.

                                                                   NSF OIG Form 22b (11/06)
                                  CONFIDENTIAL


                              Executive SUllllllary
Allegation      Material false representations made by the Subject to NSF caused
                NSF to fund duplicative research via a Small Grant for Exploratory
                Research (SGER) award to the University.
The Subject     The Subject is a faculty member at the University and has been PI
                on numerous grants. He has also been a PI for grants awarded to a
                small business-the Company--owned by              and used by the
                Subject to conduct research and to submit proposals to federal
                agencies.
OIG
Investigation The Subject was originally accused of plagiarism when he
              incorporated text, figures, and data into his progress reports for an
              Air Force Office of Sponsored Research (AFOSR) grant and into an
              NSF SGER proposal. The complainant informed the AFOSR, NSF,
              and the University of the allegation. AFOSR made a finding of
              plagiarism against the Subject.
               We coordinated with AFOSR and learned the Subject's proposals to
               AFOSR and NSF were duplicative. The proposed research in the
               Subject's NSF SGER proposal (submitted through the University)
               completely overlapped with his previously submitted (through the
               Company) Small Business Technology Transfer (STTR) to AFOSR.
               The Subject did not disclose to NSF the existence of his AFOSR
               STTR grant. After submitting and receiving funding from both
               AFOSR and NSF, the Subject then submitted the same proposal to
               Defense Advanced Research Projects Agency. We referred the
               matter to the DOJ for prosecution.
DOJ
Assessment     DOJ declined criminal prosecution because of the difficulty of
               proving the Subject's criminal intent beyond reasonable doubt, the
               low loss amount in dollars, and on the understanding that NSF has
               administrative debarment authority as an available remedy.
OIG
Assessment     The Subject knowingly made multiple false statements to NSF
               about the SGER proposal to induce NSF into funding a proposal
               that was previously funded by another agency.
OIG
Recollllllends Based upon the facts described herein, OIG recommends debarment
               of both the Subject and the Company for 3 years.
                                            CONFIDENTIAL


    I.    Background
    The Subject! has been the PIon numerous proposals submitted from the University
    and a small business (the Company) to the federal government, including NSF.2 He
    is employed by the University, and         is president of the Company. In March
    2007, the Company submitted a proposal to the Air Force Office of Sponsored
    Research (the AFOSR proposal).3 The AFOSR Phase I Small Business Technology
    Transfer (STTR) proposal was funded in June 2007. In July 2007, he subsequently
    submitted a proposal to NSF's Small Grants for Exploratory Research (SGER)
    program (the NSF proposaI4). The NSF SGER proposal was funded in August 2007.
    In February 2008, he submitted a proposal to the Defense Advanced Research
    Projects Agency (DARPA) as a proposed seedling project (the DARPA proposal). 5, 6
    The AFOSR, NSF and DARPA proposals were virtually identical in terms of the
    proposed research although some of the background materials were not included in
    all three proposals.


    II.   Investigation
    In early 2007, a research group (the group) published a paper in Nature. 7 The
    Subject was evidently impressed with the Nature paper and realized how he could
    apply it to his research. When the Subject submitted the AFOSR, NSF, and
    DARPA proposals, he included text and figures taken verbatim from the Nature
    paper and additional figures taken from other papers. 8 He also provided his

     1 Dr. Guifang Li is a faculty member at the University of Central Florida (the University). He is
the Florida Photonics Center of Excellence Professor of Optics, Physics & Electrical and Computer
Engineering .
      • • • • • • •11 (the Company) is a Fiorida business engaged in manufacturing pressed and
blown glass, with a business address • • • • • • • • • • • • • • • ~~~~:=:
                                is the owner of the small business. The Company TAX ID is:
        ; >UNS numbe                   The Company appears to have three employees. Because of the
small size, the role of                        the location               and the resulting control the
Subject has over the Company, we view the Company as an affiliate of the Subject and include the
Company as an additional Subject of this debarment recommendation. See 2 C.F.R.180.905
(definition of affiliate) and 2 C.F.R. 180.625 (scope of debarment can include an affiliate).
    3                                                                  It was submitted on 21 Mar 07.
The AFOSR proposal is Tab 2.
    4 ECCS-0742746, "Development of a Tunable Parametric Mid IR Source Using Silicon Photonic
Crystal Fiber." It was received by NSF on 3 Jul 07. The NSF proposal is Tab 3.
    5                                                    This proposal was submitted 18 Feb 08. The
DARPA proposal is Tab 4.
    6 We have marked the three proposals (Tabs 2-4) to indicate overlap. The yellow highlighted
material is common to all three proposals, and the green underlined material is common to the
AFOSR and DARPA proposals, but not the NSF proposal.

•                              .......................
    .~7======================~This paper is Tab 1.    .
     8 Figure 8 (4) in the AFOSR (NSF) proposal was copied f r o m : : : : : : : : : : : : : :
. . . Figure 5 (1) in the AFOSR (NSF) proposal was copied from



                                                                                                 p. 1
                                           CONFIDENTIAL


 AFOSR program manager with data from the group without identifying it as the
 group's data rather than his own. This led to allegations of plagiarism against the
 Subject at the University, AFOSR, and NSF.
The University conducted an inquiry and concluded the presence of citations to the
Nature paper in the text of the proposals mitigated the Subject's failure to properly
cite the source material from the Nature paper (it did not consider the figure copied
from the other paper) and did not make a finding of research misconduct. AFOSR
disagreed with the University and issued a finding of research misconduct for
plagiarism against the Subject.9 During the course of reviewing the material
relevant to this allegation, we learned the AFOSR, the NSF, and a third proposal,
the DARPA proposal, were essentially the same proposal and began a criminal
investigation. 10
Approximately 3 months after submitting the AFOSR proposal, AFOSR notified the
Company that its proposal was recommended for funding.!1 A few weeks later, the
Subject submitted, through the University, the NSF proposal, which was directed to
NSF's Small Grants for Exploratory Research (SGER) program. 12
A review of the AFOSR and NSF proposals shows near-complete duplication of
research effort-.the NSF proposal is a subset of the AFOSR proposal, i.e., there is
no research proposed in the NSF proposal that was not proposed in the AFOSR
proposal. 13, 14
The Program Officer (PO 1) assigned to the NSF proposaP5 recalled he and the
Subject discussed the Subject's proposed SGER submission. However, POl said the
Subject did not inform him that the proposed research idea had been submitted to

    9 Tab 5.   AFOSR wanted to seek debarment of the Subject for the plagiarism. Because we
referred the matter to an Assistant U.S. Attorney (AU SA) for prosecution (as described in the next
section), we requested AFOSR wait until the AUSA made a decision so the AUSA would have a full
range of options to consider.
    10 Since the Subject submitted first to AFOSR, it did not join in the criminal investigation, but
kept its administrative investigation active. NSF OIG and the Defense Criminal Investigative
Service (for DARPA) conducted the criminal investigation.
    11 On 11 Jun 07.
    12 On 3 Jul 07.
    13 The identical portions with the AFOSR STTR proposal have been highlighted in yellow.
    14 It is important to note the distinctions in the two programs to which the Subject submitted
this research idea. The STTR program is a technology transfer program designed to foster
innovative, commercially feasible, cooperative research (the University is a subcontractor on this
award). The SGER program is for small-scale, exploratory, high-risk research on new, untested
ideas. Thus, these two programs are at opposite ends of the research continuum. Therefore, the
Subject's submission of the same proposed research to two different programs entailed deceptive
salesmanship on his part to his two program officers. This duplicative funding is particularly
problematic because the SGER funds are limited and awards are made on an expedited basis with no
merit review and thus no community exposure thereby increasing the chances fraud might be
successful.
    15 • • • •lIwas the assigned Program Officer. As he was a rotator, he sought advice from the
Deputy Division Director and senior Program Officer,                       on evaluating the SGER,
which is not merit reviewed.


                                                                                                p.2
                                        CONFIDENTIAL


 another agency, nor that the other agency had agreed to fund it. 16 The Subject
 checked the "No" box on the cover page of his NSF proposal indicating it had not
 been submitted to another agency.1 7 Furthermore, while the Subject disclosed
 many current and pending proposals on his Current and Pending Support form, 18
 he conspicuously failed to include the AFOSR award, which is particularly
 noteworthy since the proposed research is the same, and he knew it was recently
 selected for funding. In addition, the Subject did not disclose to AFOSR the
 existence of his funded NSF SGER proposal when he later sought Phase II funding
 for his AFOSR work on 2S Mar OS.
When NSF notified the Subject his NSF proposal was funded, that too did not
prompt him to disclose his AFOSR funding to NSF. Furthermore, the start date of
the AFOSR research 19 and the NSF start date were within 2 weeks of each other, so
it is extremely unlikely the Subject was unaware of the funding overlap of this
research project.20 The Subject again submitted this same proposed research
(through the Company again) to DARPA.21 Just as the Subject did not disclose to
NSF the existence of his AFOSR award, he did not disclose to DARPA the existence
of either the AFOSR or NSF awards.


            Table showing chronology of the Subject's proposal submissions
            21 Mar 07 Submission of STTR Phase I to AFOSR
            11 Jun 07    AFOSR notified Subject of positive funding decision
            3 Jul 07     Submission of SGER to NSF
            30 Sep 07    AFOSR project start date (approximately $lOOk)
            15 Oct 07    NSF project start date (approximately $70k)
            19 Feb OS    Submission of seedling proposal to DARPA




We interviewed the POl and a senior NSF Program Officer, who reviewed and co-
signed the award recommendation (see fn. 15), and showed them the AFOSR and
NSF proposals with the duplicative text highlighted. PO 1 said,




   16  Tab 6.
   17  Tab 3, p. 1 (pink highlight).
    18 Ibid., pp. 16-17.
   19 The AFOSR project start date was 30 Sep 07, with funding of approximately $100,000.
   20 The NSF project start date was on 15 Oct 07, with funding of approximately $70,000.
   21 The submission to DARPA was on 19 Feb 2008. This research contract was signed 18 Jun 08,
and the research began on 30 Jun 08 (and was funded for approximately $255,000).


                                                                                         p.3
                                          CONFIDENTIAL


          Obviously, if I knew this exact idea had already been funded by
          AFOSR, I would not recommend the SGER grant.22
 The senior NSF Program Officer said,
          I am appalled to see the similarity between the Air Force funded
          proposal of [the Subject] of the University of Central Florida and the []
          SGER proposal funded by NSF. I am especially appalled that the title
          and subtitles in his SGER proposal to NSF are the same as the one he
          had submitted in the proposal to the Air Force.
          I co-signed the SGER award recommendation with [PO 1] because I
          was made to believe by [the Subject] that this SGER will result in the
          first silicon photonic crystal fiber and the demonstration of the mid IR
          generation. I would have not co-signed it if I had known that the
          AFOSR had already funded the idea. 23
When the Subject realized he was being investigated for duplicate submissions, he
attempted to resolve the matter with the new Program Officer (P02) assigned to his
NSF SGER grant.24 He contacted P02 and explained he was accused of plagiarism
(described above) and "potential double dipping," so he wanted to change the scope
of the grant and requested a no-cost extension since "[the University] froze this
account during its inquiry."25 As P02 explained to us, SGERs are for specific focus
areas that need seeding funding to prove feasibility in a timely manner; changing
the scope of a SGER award after it has been made and expired simply made no
sense. Additionally, no-cost extensions are not allowed for SGERs. The Subject's
request was denied by the program. 26


III.      The Subject's position
The Subject responded through his attorney to AFOSR's finding of research
misconduct for plagiarism, and his attorney informed us it addressed the issues
pertinent to our investigation as well. 27 The Subject noted that the three proposals
were supposed to use different starting materials and thus were independent
projects. Regarding submission of the same project as both a STTR and a SGER,
the Subject said he "was simply overly enthusiastic and anticipating many things
that could be possible."28



   22   Tab 6.
   23   Tab 7.
   24 • • • • • • took       over POl's program after POI returned to his home institution.
   25  Tab 8.
    26 P02 recommended declination to his Division Director,                     who concurred.
    27              represents the Subject in this matter. For the purposes of this report, we will
describe the Subject's attorney's response as his own. His response to AFOSR is Tab 9.
    28 Tab 9, p. 2.




                                                                                              p.4
                                            CONFIDENTIAL


The Subject justified checking "No" on the NSF cover page in response to the
question "Is this proposal being submitted to another agency?" as the "literal
answer to this question is indeed no" since there is additional background material
in the AFOSR proposal.2 9 Furthermore, the Subject asserts he "did not personally
review the cover page" because he was sick at the time of submission and a
secretary prepared it.3o The Subject "agrees however, that the tasks listed in the
NSF SGER proposal look the same as outlined in the STTR Phase 1."31 The Subject
said he informed PO 1 about the AFOSR proposal.
The Subject claimed these were different projects "in his mind" and he worked on
the NSF SGER only after completing the AFOSR STTR Phase 1. He said this was
why "very little money was spent on the SGER grant,"32 which contradicts his
explanation to P02 that the University froze his account. 33


OIG evaluation of the Subject's position
As indicated by his NSF PI History,34 the Subject is an experienced, successful
researcher and aware of the practices of the field in which he works. He is the
director of an NSF IGERT program at the University.35 He is the recipient of the
NSF CAREER award 36 and the Office of Naval Research Young Investigator award.
He is also an Associate Editor of several professional journals. 37 Therefore, the
Subject's claim that he did not recognize he was submitting the same proposal to
two (three including DARPA) agencies in programs on opposite ends of the research
spectrum (the STTR and SGER programs) because he was over-enthusiastic is not
credible.
The Subject claims he was literally correct in checking 'No' on the cover page
because his NSF proposal is shorter than his AFOSR proposal. The material the
Subject included in the AFOSR proposal that was omitted from the NSF proposal
(e.g., pp. 3-6 of Tab 2) is introductory material that is not necessary for a SGER
proposal. While his answer may be literally true in that they are not identical in
length, all of the proposed research in both proposals is identical. There is no
indication in either proposal that the Subject planned to use different materials as
he claimed.

   29 Ibid. p. 5.
   30 Ibid. p. 6.
   31 Ibid.
   321bid.
   33 See text associated with footnote 23; Tab 7.
   34 Tab 9 is the Subject's PI History at NSF.
   35


    36 ECCS-9625053 (9896141-transfer) "CAREER: All-Optical SCM and WDM-SCM Multi-Access
Networks Based on Optical Current-Controlled Oscillators" and one CGI and two supplements
totaling $145,000.
   37




                                                                                     p.5
                                           CONFIDENTIAL


 The Subject's claim that he explicitly told PO I about the AFOSR STTR proposal is
 disputed by POL Additionally, both POl's and the senior Program Officer's written
 statements make it clear that not only did they not know about the AFOSR
 proposal, they would not have funded the NSF proposal if they had known. The
 POs, and thus NSF, were deceived by the Subject.


IV.       Department of Justice Assessment
Given the duplications in the AFOSR, NSF and DARPA proposals; the failure of the
Subject to disclose to AFOSR, NSF, and DARPA the fact that he submitted the
same proposal to all agencies; and the strong statements by NSF program staff that
their decision was based on material omissions by the Subject, and would have been
different if they had know all the facts; we referred the matter to the Department of
Justice for prosecution. The Assistant U.S. Attorney declined to prosecute the case
because he did not believe (a) he could prove beyond a reasonable doubt that the
Subject intentionally violated federal law, (b) the low dollar loss amount to NSF,38
and (c) the availability of administrative debarment.


V.        Debarment
     A.     Grounds for Debarment
NSF has the authority to debar an individual or entity for "[v]iolation of the terms
of a public agreement or transaction so serious as to affect the integrity of an agency
program .... "39 Such a violation occurs when the individual or entity commits a
"willful violation of a statutory or regulatory provision or requirement applicable to
a public agreement or transaction .... "40 Furthermore, NSF has the authority to
debar an individual or entity for "[a]ny other cause of so serious or compelling a
nature that it affects [the person's or entity's] present responsibility."
To summarize, the Subject submitted the AFOSR proposal through the Company
for a Phase I STTR. He then submitted the same research tasks to NSF in the form
of a SGER, but he took several steps to ensure NSF would not learn of the AFOSR
proposal, including: i) failing to notify his program officer about his funded AFOSR
Phase I STTR contract; ii) checking the 'No' box on the NSF cover page indicating
this proposal had not been submitted elsewhere; and iii) failing to include the
AFOSR proposal on his Current & Pending Support form. Failure to execute these
three steps violated requirements applicable to a public agreement or transaction,
i.e., the funding of the NSF SGER. In addition, if the Subject had properly executed
anyone of these steps, NSF would have been put on notice to at least ask questions
of the Subject regarding his SGER submission. That an experienced researcher and

    38 Recall the Subject said the University froze his account during its Inquiry, so he had expended
only approximately $3,400, and he had not drawn any funds against the DARPA contract.
    39 2 C.F.R. § 180.800(b).
    40 2 C.F.R. § 180.800(b)(3).




                                                                                                 p.6
                                            CONFIDENTIAL


 proposal submitter like the Subject failed to do any of these leads to a conclusion
 that the Subject knowingly failed to notify NSF of the existence of his AFOSR
 proposal. Thus, we conclude the Subject knowingly violated NSF's requirements
 and lacks present responsibility and should therefore be debarred.
The Company, the entity through which Subject submitted the AFOSR and DARPA
proposals, is directly or indirectly controlled by Subject. As noted above (fn 2), the
Company's business address is                       it has three employees and it is
owned by                    Thus, the Company is an affiliate of Subject and Subject
used the Company to effectuate his scheme. Further, the Subject's individual
actions mEW be imputed to the Company because the Subject's improper conduct
occurred in connection with his performance of duties as Principal Investigator for
the Company. As both an affiliate of the Subject, and because the Subject's conduct
may be imputed to the Company, the Company should also be debarred. 41
        Burden of Proof
In debarment actions, the burden of proof lies with NSF to demonstrate by a
preponderance of the evidence that cause for debarment exists. Here, the
preponderance of the evidence amply demonstrates that the Subject knowingly
deceived NSF program officers in a manner that violated the requirements for the
SGER program and reflected a lack of present responsibility. The preponderance of
the evidence also amply demonstrates that the Subject used his affiliate, the
Company, to mislead and deceive the AFOSR and DARPA program officers.
    B. Relevant Factors
The debarment regulation lists 19 factors that the debarring official may consider. 42
Listed below are the factors pertinent to this case, and they are equally relevant to
Subject and to the Company:
    1. Actual or Potential Harm or Impact43
The Subject and his affiliated Company caused actual harm to NSF. Both NSF
Program Officers who reviewed the Subject's SGER proposal stated they would not
have funded the proposal had they known he had already received funding from
AFOSR for the same research. Thus, NSF made an award obligating $70k that
could have gone to another awardee. Although the Subject did not spend much from
the award (approximately $3,400), NSF lost the opportunity to fund another SGER
project that year because the funds were obligated to the Subject. 44




    41 2 C.F.R.§ 180.905 (definition of affiliate); 2 C.F.R. § 180.625 (scope of debarment may include
an affiliate); 2 C.F.R. § 180.630 (imputation of conduct permitted).
    42 2 C.F.R. § 180.860.
    43 2 C.F.R. § 180.860 (a).

    44 This award was made in FY 2008 and remains open. If it closes in FY 2010, NSF should be
able to use funds.


                                                                                                 p.7
                                            CONFIDENTIAL


    2. Frequency of Incidents 45
As noted above, the Subject and/or the Company submitted this proposal to the
government on three separate occasions, and the government committed
approximately $425,000. He submitted it through the Company to AFOSR, which
funded it for approximately $100,000. He then submitted it through the University
to NSF, which funded it for approximately $70,000. He then submitted it through
the Company to DARPA, which also funded it for approximately $255,000. He
failed to notify any of his program managers he had submitted the same proposed
research to the other agencies.
    3. Other Administrative Agreements 46
Although there has been no previous administrative action by NSF, as noted above,
AFOSR took administrative action against the Subject for the plagiarism in his
proposal submitted to AFOSR. Since the proposals to NSF and DARPA were
essentially the same, the copied text and figure appeared in each of these as well. 47
AFOSR made a finding of research misconduct. In addition, it took the following
actions effective for 3 years (until 9 Apr 2012):
   •      prohibited him for being a reviewer,
   •      required certifications, and it
   •      required assurances from a responsible official of his employer.
   It also told him to correct the record of anything submitted to AFOSR that could
   be obtained under a FOIA request and required an ethics training course by 30
   September 09.
   4. Role in Wrongdoing 48
The Subject, acting as PIon all of the proposals and in control of the Company, was
responsible for all of the false statements, including false statements by omission,
identified above.
   5. Acceptance of Responsibility 49
Prior to our providing a draft report to the Subject, neither the Subject nor the
Company accepted responsibility for the actions associated with this matter.
Subsequently, while still denying any intent to mislead, he acknowledged he made a
mistake in cutting corners in writing his proposals and in not informing his
program officials about the other awards. That said, his continued misleading
explanations are more indicative of rationalization than of acceptance of
responsibility.


   45   2 C.F.R. § 180.860 (b).
   46   2 C.F.R. § 180.860 (e).
   47   See fn. 9.
   48   2 C.F.R. § 180.860 (f).
   49   2 C.F.R. § 180.860 (g).


                                                                                 p.8
                                           CONFIDENTIAL


     6. Repayment 50
 Prior to our providing a draft report to the Subject, neither he, the University, nor
 the Company have repaid NSF or DARPA for the wrongfully acquired funds.
 Subsequently, the University sent a letter informing us it intends to return the
 funds expended on the funded NSF SGER proposal to NSF. The Subject claimed,
 but did not provide proof, that he also returned the DARPA funding.
     7. Positions Held by the Subject51
As noted above, the Subject is an experienced researcher. He has submitted many
proposals, on which he was the PI, to multiple agencies both through his university
position and through his position at the Company.
    8. Other Factors 52
There is no evidence the Subject or the Company diverted any of the
misappropriated funds from this grant towards Subject's or the Company's own
personal use or the personal use of others.


Subject's Response to the Draft Report 53
The Subject's response reiterated much of the material in his earlier response to the
AFOSR. He acknowledged mistakes in the submission of the proposals, but
continues to claim his intentions were not deceptive. He claims his proposed
research, under certain scenarios, can be simultaneously appropriate for both ends
of the research spectrum (STTR and SGER). We note these hypothetical scenarios
were not described in any of the proposals.
Although he earlier told P02 the University froze his account, requiring him to seek
a no-cost extension,54 he now states he didn't spend the NSF award funds because
he was waiting to finish the AFOSR research before starting the NSF research.
However, the Subject failed to disclose this revised schedule to his program
managers.
The Subject argued the DARPA proposal was superseded by the DARPA contract,
and it was done "in a completely transparent manner"55 so it shouldn't count
against him. This is misleading as the Subject did not inform DARPA his proposed
research was already funded by AFOSR and NSF 56; also both AFOSR and NSF



   50  2 C.F.R. § 180.860 (h).
   51  2 C.F.R. § 180.860 (k).
    52 2 C.F.R. § 180.860 (s).
    53 The Subject's and his attorney's responses are Tab 11. As before (see fn. 27), we describe the
attorney's response as the Subject's.
    54 Tab 8.
    55 Tab 11, subject letter, p. 2.
    56 Tab 11, Attachments, p. 75 (Attachment 11).




                                                                                                p.9
                                              CONFIDENTIAL


 require PIs to disclose the funding agency when presenting work funded by that
 agency.57
 The Subject further states he contacted PO 1 and his DARPA program officer to
 confirm he disclosed his prior proposals and funding-neither program officer could
 confirm his disclosures. Likewise there is no evidence the subject disclosed his NSF
 and DARPA awards to AFOSR during either Phase I or Phase II.
 The Subject argued he has been effectively debarred for 2 years already because
           Given the circumstance, I could not actively pursue funding from NSF
           and DARPA where most of my prior federal funding has come from in
           the last 2 years. I had to decline to participate in collaborative efforts
           with other faculty members to NSF, AFOSR and DARPA so as not to
           jeopardize the outcome of their efforts in the last 2 years. I have to give
           up an important research field on [ ] that I have invested a lot of time
           and effort because I lost all funding in this area. In effect, I have been
           debarred for the last 2 years. 58
He also said his debarment would be catastrophic to his students, who would not be
able to complete their degrees.
We find these arguments disingenuous.            As noted above, the Subject now
contradicts his earlier statement to P02 that he didn't work on the NSF award
because the University froze his account, but rather because he was working on a
hypothetical, internal schedule of completing the AFOSR research before working
on the NSF research. Thus, if we believe his current explanation, he was not
effectively debarred, but rather following his internal schedule.
Regarding the Subject's funding, he asked the University to return funding to NSF,
and he states he returned funding to DARPA. So, even without this funding, his
students continued to work on their degrees. Students would still be able to work
under federal funding the subject received prior to debarment as well as any private
funding he receives, and the University could replace the Subject on any awards
that support students.
More problematic are the Subject's recent actions that contradict his claim of being
effectively debarred. Last year (FY09), the Subject submitted a proposal to NSF
and also received funding from the Air Force thereby demonstrating he has not
been effectively debarred. Also, it appears the Subject received awards from
Lockheed Martin and the University to continue research in this same area. 59 Thus
he contradicts himself again in that not only is he not debarred, he has not had to
"give up" this research field because he lost funding.


    57   This clause is in section H097 of his AFOSR contract and in section 21 of NSF's GC-l.
    58   Tab 11, subject letter, p. 3.
    59

https:llargis.research. ucf. ed u/index. cfm ?fuseaction=detail. view_peop Ie_detail&rec_id=816 &RecTyp e
=people&requesttimeout=5000&sponsocflag=O


                                                                                                   p.10
                                        CONFIDENTIAL


The Subject noted the University will offer:
       an administrative agreement in lieu of debarment so that the NSF can
       be assured that the federal government is protected and at the same
       time [the Subject] can still contribute to the society to the best of his
       abilities. I have discussed this arrangement with the University. [The
       University] will support [the Subject] in this arrangement and will
       communicate with NSF directly regarding this arrangement in the
       near future. 6o
After some delay, we received the University's proposed resolution. 61 As detailed
below, the University has essentially offered Group I actions to protect the
government. We believe that given Subject's egregious conduct, relying on Group I
actions is insufficient.
The University proposed it would protect the government's interests through four
actions:
   1. Training-the Subject would attend annual training for 3 years.
         Unfortunately, the University did not propose any specific training, nor even
         any broad training topics. Also, under this vague plan, the training could be
         the Subject simply meeting with a member of the University's research office.
         Because of the lack of specificity, we conclude this measure is too vague to be
         useful. Furthermore, training is not a substitute for the type of protection
         that debarment would provide.
   2. Review-someone (unspecified) from the Subject's college would review his
      proposals for 3 years.
         The Subject was already supposed to review his proposal to ensure the
         information in his Current and Pending Support (CPS) agreed with the
         University's database before submission. However, he failed to do so.
         Rather, someone in the AOR's office compiled the information for the CPS.62
         Because the database relied upon by the AOR office was inaccurate and
         incomplete, the review was ineffective.
        The University's proposal that a member of Subject's college conduct the
        review does nothing to ensure the accuracy of its database that will be relied
        upon by this unknown and unspecified individual. The flaws in the database
        are only underlined by the fact that, in this case, the University itself was a
        subcontractor on the AFOSR STTR and still there was no reference to this
        project in the database. Finally, the University's proposed resolution fails to
        require the Subject to disclose to the University any proposals submitted by
        his Company. For all of the above reasons, we conclude this measure is
        ineffective and would not protect the government's interests.

  60   Tab 11, attorney letter, p. 9.
  61   Tab 12.
  62   Tab 11, attachments, p. 32.


                                                                                  p.11
                                        CONFIDENTIAL


      3. Certifications-the Subject would be required certify his proposals, submitted
         through the University to a federal sponsor, would not contain plagiarism,
         falsification, or fabrication.
           The obvious limitation to this action is that it does not apply to proposals
           submitted through the Subject's Company. Accordingly, we conclude this
           action is insufficient.
      4. Restrictions-the University proposes that the Subject will be prohibited for
         3 years fl.'Om engaging in research and development activities outside the
         University.
          Problematically, in the very next sentence, the University proposes to review
          and approve his outside R&D activities. The University also proposed
          reviewing the Subject's submissions to journals, requiring the Subject to
          submit quarterly reports on his research, and notifying NSF OIG of the
          Subject's outside R&D. This action is inconsistent with respect to the
          Subject's R&D activities outside the University, and it is not enforceable by
          the University or OIG. Furthermore, the Subject was already obligated to
          notify the University about his outside research,63 but failed to do so. We
          have little confidence that restating this existing requirement will protect the
          government's interests. We conclude that this action is both unenforceable
          and ineffective.
In conclusion, we assess the University's proposed actions as equivalent to Group I
actions, not a Group III debarment. None of the actions, individually, or taken
together, would protect NSF and the government from a possible repeat of the
Subject's actions at question here.


VI.       Recommendation
Consistent with the need to protect the interests of the public, NSF, and the entire
federal government, we recommend that NSF debar both the Subject and the
Company for 3 years. We note the proposed debarment of the Subject and the
Company would not only protect NSF but the government since he would not be
able to further deceive other federal agencies by his lack of disclosures about his
research. Neither the Subject's rebuttal nor the University's proposed plan alters
our recommendation for 3 years of debarment. Indeed, the Subject's response only
strengthens our conclusion that the Subject is not honest and forthcoming in his
dealings with the government.
We recommend NSF work with the University to implement the action
recommended above in a manner calculated to minimize the negative effect on the
Subject's students and research associates. In particular, NSF may wish to ensure
the Subject is removed as PI and/or co-PI from any active NSF grants.


   63   Tab 12, p. 2.


                                                                                    p. 12
